<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-504]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-504
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                             NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   on


S. 400                                 S. 1573                               S. 2102
S. 966                                 S. 1602                               S. 2213/H.R. 4300
S. 1160                                S. 1645                               S. 2225
S. 1260/H.R. 2615                      S. 1646                               S. 2238
S. 1335                                S. 1692                               H.R. 1397
S. 1446/H.R. 1135                      S. 1956/H.R. 2897                     H.R. 1500
S. 1472
 


                               __________

                           FEBRUARY 14, 2018

                               __________
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______
                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 29-765                WASHINGTON : 2020
         
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          MAZIE K. HIRONO
ROB PORTMAN                          TAMMY DUCKWORTH

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
King, Jr., Hon. Angus S., Subcommittee Ranking Member and a U.S. 
  Senator from Maine.............................................     4
Portman, Hon. Rob, a U.S. Senator from Ohio......................     5

                                WITNESS

Smith, P. Daniel, Deputy Director, National Park Service, U.S. 
  Department of the Interior.....................................     6

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Agenda...........................................................     3
American Discovery Trail Society:
    Statement for the Record.....................................    49
Blue Ridge National Heritage Area:
    Statement for the Record.....................................    54
Blunt, Hon. Roy:
    Statement for the Record.....................................    57
Bowser, Hon. Muriel:
    Letter for the Record........................................    58
Burr, Hon. Richard:
    Statement for the Record.....................................    60
Capito, Hon. Shelley Moore and Coons, Hon. Chris:
    Joint Statement for the Record regarding S. 1573.............    61
    Joint Statement for the Record regarding S. 1692.............    63
Cardin, Hon. Benjamin L. and Van Hollen, Hon. Chris:
    Joint Statement for the Record...............................    65
Daines, Hon. Steve:
    Opening Statement............................................     1
Hirono, Hon. Mazie K.:
    Statement for the Record.....................................    69
King, Jr., Hon. Angus S.:
    Opening Statement............................................     4
Murkowski, Hon. Lisa:
    Statement for the Record.....................................    71
National EMS Memorial Foundation:
    Letter for the Record........................................    73
National Parks Conservation Association:
    Letter for the Record........................................    76
Portman, Hon. Rob:
    Opening Statement............................................     5
Smith, P. Daniel:
    Opening Statement............................................     6
    Written Testimony............................................     8
    Responses to Questions for the Record........................    37
(The) Wilderness Society:
    Letter for the Record........................................    79

                               __________
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/2018/2/subcommittee
021418.


                          PENDING LEGISLATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:07 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. The Subcommittee will come to 
order.
    Before we begin I would like to take a moment to welcome 
our new Ranking Member, Senator Angus King, who hails from the 
great State of Maine. I will tell you there is some great 
symmetry here with Maine and Montana here leading this 
Committee. It is wonderful to have you and, truly, I look 
forward to working with you.
    The 23 bills we are examining this afternoon cover a wide 
range of issues related to the federal land administered by the 
U.S. Department of the Interior, primarily by the National Park 
Service.
    Some of the items we will hear today are new to the 
Subcommittee and others we have heard before in previous 
Congresses, but this will give us a great opportunity to update 
the record as well as for members to ask questions. In 
addition, a good number of the items on the agenda today have 
been included in S. 1460, the Energy and Natural Resources Act 
of 2017.
    Because we have so many items on the agenda today, I won't 
go through each one, but I would like to highlight a few before 
we do get started.
    For example, S. 1260, which was introduced by my colleague, 
Senator Cochran, is on the list today. This bill would 
authorize a land exchange between the Veterans of Foreign Wars 
(VFW) Post 5699 in Ocean Springs, Mississippi, and the National 
Park Service. Right now, the only way to reach the VFW Post is 
across a one lane, dirt access road. While the Park Service 
allows the VFW to construct and maintain the access road, they 
did not provide a right of way or a special use permit. This 
land exchange between the VFW and the Park Service would allow 
for guaranteed access to a driveway for VFW members and would 
be mutually beneficial for both parties. I think this is the 
least we can do for those who have served our country.
    Speaking of those who have served, we have another item on 
our agenda today, Senate bill 2213, which speaks to the legacy 
of the veterans of our greatest generation. This bill was 
introduced by Senator Hirono and would allow for the creation 
of the Pacific War Memorial at Pearl Harbor to tell the story 
of those U.S. Servicemembers who fought bravely alongside all 
other allied servicemembers in the Pacific Theater during World 
War II, many who made the ultimate sacrifice. This may come as 
a surprise to many, but the current memorials at Pearl Harbor 
commemorate America's entry into and the successful end to the 
war but lack of space to honor individuals who served in 
Theater. This legislation would allow a commemorative display 
to be constructed at no cost to the Federal Government and 
would be named after a hero of the greatest generation, Admiral 
Lloyd R. ``Joe'' Vasey, who, it is my understanding, recently 
celebrated his 101st birthday. I look forward to learning more 
about how we can move this forward on a bipartisan basis.
    We have a few other items on the agenda that, I believe, 
are of special significance today. It is February which is 
African American History Month. There are two bills on our 
agenda: S. 1645, which would authorize a special resource study 
for Public School 103, that is Thurgood Marshall's elementary 
school, and Senate bill 1646, which would authorize a special 
resource study for President Street Station in Baltimore, both 
of which are significant to African American and all American 
history. In addition, S. 1446, which would reauthorize 
Historically Black Colleges and Universities Preservation 
Program, is on the agenda. I look forward to a good discussion 
on each of these items in addition to the rest of all the bills 
on our long list.
    Each of these agenda items are not only important to 
individual members of the Subcommittee but to our nation's 
parks and citizens as a whole. This Subcommittee is so 
important to our members and our citizens because we often talk 
about very local issues and about access to our parks.
    In Montana, access to public lands and recreation is at the 
forefront of our minds and our economy. It is my hope that as 
Chair I can continue to further that discussion. In fact, just 
today we heard from the Bureau of Economic Analysis about the 
economic benefit of outdoor recreation to our economy.
    I know we have quite a few items on the agenda today, but I 
am hopeful we can move through the list fairly quickly. It is 
Valentine's Day. I am sure somebody in this room may have other 
plans this evening.
    The purpose of this hearing is to consider the 
Administration's views on these bills and allow Committee 
members an opportunity to ask questions. We will also include 
written statements that have been sent to the Subcommittee in 
the official hearing record.
    Because of the large number of bills on today's agenda, I 
will not read through the list, but at this time I will include 
the complete agenda in the hearing record. Without objection.
    [The complete agenda referred to follows:]

                          UNITED STATES SENATE

                             COMMITTEE ON 
                      ENERGY AND NATURAL RESOURCES

                     Subcommittee on National Parks

    February 14, 2018 Hearing regarding Pending Legislation

                             AGENDA

  <bullet> S. 400, the Susquehanna National Heritage Area Act
  <bullet> S. 966, the National Historic Vehicle Register Act 
        of 2017
  <bullet> S. 1160, the Abraham Lincoln National Heritage Area 
        Amendment Act
  <bullet> S. 1260/H.R. 2615, the Gulf Islands National 
        Seashore Land Exchange Act of 2017
  <bullet> S. 1335, the Ste. Genevieve National Historical Park 
        Establishment Act
  <bullet> S. 1446/H.R. 1135, to reauthorize the Historically 
        Black Colleges and Universities Historic Preservation 
        program
  <bullet> S. 1472, a bill to reauthorize the Tennessee Civil 
        War Heritage Area
  <bullet> S. 1573, the American Discovery Trail Act of 2017
  <bullet> S. 1602, the Finger Lakes National Heritage Area 
        Study Act
  <bullet> S. 1645, the Thurgood Marshall's Elementary School 
        Study Act
  <bullet> S. 1646, the President Street Station Study Act
  <bullet> S. 1692, the National Emergency Medical Services 
        Commemorative Work Act
  <bullet> S. 1956/H.R. 2897, a bill to authorize the Mayor of 
        the District of Columbia and the Director of the 
        National Park Service to enter into cooperative 
        management agreements for the operation, maintenance, 
        and management of units of the National Park System in 
        the District of Columbia
  <bullet> S. 2102, the Acadia National Park Boundary 
        Clarification Act
  <bullet> S. 2213/H.R. 4300, the Admiral Lloyd R. ``Joe'' 
        Vasey Pacific War Commemorative Display Establishment 
        Act
  <bullet> S. 2225, the Blue Ridge National Heritage Area 
        Reauthorization Act of 2017
  <bullet> S. 2238, a bill to amend the Ohio & Erie Canal 
        National Heritage Canalway Act of 1996 to repeal the 
        funding limitation
  <bullet> H.R. 1397, to authorize, direct, facilitate, and 
        expedite the transfer of administrative jurisdiction of 
        certain Federal land, and for other purposes
  <bullet> H.R. 1500, the Robert Emmet Park Act of 2017
    Senator Daines. We have one witness today, Mr. P. Daniel 
Smith, Deputy Director, National Park Service, U.S. Department 
of the Interior. This is Mr. Smith's first time testifying for 
the Subcommittee but not his first time up here in the Senate 
in this capacity. I would like to thank him for being here with 
us.
    First, let me turn to the Ranking Member, my friend, 
Senator King, for his opening remarks.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. Thank you, Mr. Chairman. I must say I am 
delighted to be joining you as Ranking Member of this 
Subcommittee.
    I am just delighted to welcome Director Smith who, I just 
learned, hails from Portland, Maine, which means you have a lot 
of credibility coming out of the box, Mr. Director. Don't screw 
it up.
    [Laughter.]
    We are delighted to have you here.
    I am also excited you mentioned Thurgood Marshall. It was 
50 years ago this spring that I was a young law student and I 
heard Thurgood Marshall speak at the University of Virginia Law 
School. It is one of the highlights of my life. I still 
remember the speech to this day.
    I am a strong supporter of the National Park System, a firm 
believer in its mission to protect and preserve the natural and 
cultural resources of this nation for the enjoyment of future 
generations. In this role, I hope to help the Park Service 
bring its operations into the 21st century, to help our 
national parks connect to a new generation of visitors, and to 
redouble our efforts to solve the challenges facing the Park 
System from older challenges like park maintenance and funding 
to the newer challenges such as record visitation at certain 
parks and the long-term threats of climate change.
    Director Smith, I also welcome you to the Committee today. 
I appreciate your testimony on the pending legislation and 
appreciate the work that you have done for many years.
    I understand one of the issues that I am going to be 
talking about is Acadia National Park, and you worked on that 
issue in 1986. It is a delight to have you here with your 
expertise and history.
    The Park Service and the Department of the Interior has 
been working with me for some time to address concerns about 
the legislation involving Acadia. I know that both the 
Administration and the Maine delegation are dedicated to 
preserving and continuously improving Acadia National Park, one 
of the crown jewels of the National Park System.
    I think the changes we have made in this legislation 
appropriately take care of a number of issues at the Park. 
Importantly, the bill addresses the concern from local 
neighbors about the Park and about the boundaries by protecting 
traditional activities of clammers and wormers near the Park 
and it also addresses an assortment of other issues that were 
bound to arise between close neighbors who have been in 
proximity for 100 years.
    By the way, I was at a celebration two summers ago of the 
100th anniversary of Acadia National Park, and at the 
celebration was the only person on the island older than the 
Park, David Rockefeller. He was 101 and was at that 
celebration.
    The legislation that we are bringing forward also codifies 
important work and a welcome gift to Acadia, 1,400 acres on the 
Schoodic Peninsula and addresses some long-term concerns about 
the size and scale of the Park by ending a lack of clarity on 
the Park Service's authority and the role of Congress regarding 
future acquisitions and boundary changes.
    Thank you again, Director Smith, for being here, and thank 
you, Chairman Daines. I look forward to our hearing.
    Senator Daines. Thank you, Ranking Member King.
    Are there any Senators who would like to make a short 
statement on their legislation today?

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman. I am delighted 
that you are chairing this Subcommittee and that you have an 
able Ranking Member, both of whom have great passion for the 
parks. I am proud to be on this Subcommittee.
    I know that both of you have some great parks in your 
states. We do too, in Ohio, as Mr. Smith knows. We are proud of 
our Cuyahoga Valley National Park.
    We worked last year with this Subcommittee, the full 
Committee and the Park Service on the National Park Service 
Centennial Act. I just had the National Park Foundation folks 
in recently and they reported that they have well exceeded 
their expectations on raising private money to match the 
federal money which is going to go into this issue of the 
maintenance backlog, among other things, which is so critical.
    And then, of course, we have this new legislation, the 
National Park Service Legacy Act with Senator Warner to 
dedicate some of these on and off shore resources to address 
that backlog that, I know, the Chair and Ranking Member feel 
strongly about also because they see it in their own parks. My 
hope is that we can move forward with legislation that 
continues to expand these public-private partnerships and get 
more money to the backlogs.
    We have a bill, also, that is going to be discussed today, 
the National Historic Vehicle Register Act, with Senator 
Peters, and then we have a reauthorization we need for the Ohio 
and Erie Canal which is a National Heritage Area. I will say on 
that one, Mr. Chairman, the leverage has been one to three. So 
$1.00 of federal funding, about $600,000 a year has been 
leveraged with another $3.00 of mostly private funding. It is a 
good example of leveraging some money from the Park Service to 
create additional funds that can help to protect some critical 
areas and, in this case as well as Cuyahoga Valley, areas that 
have high population and a lot of usage.
    Cuyahoga Valley National Park is one of the top ten parks 
in the country in terms of attendance, even though it is not as 
large and does not have the reputation, perhaps, of some other 
parks in your respective states.
    So thank you for being here, Mr. Smith. And again, to the 
Chair and Ranking Member, I am really excited to be on the 
Subcommittee with them and continue to take whatever efforts, 
steps, we can to help the National Parks be successful.
    Senator Daines. Thank you, Senator Portman.
    All member statements will be added to the hearing record.
    It is now time to hear from our witness, Mr. P. Daniel 
Smith, Deputy Director, National Park Service, U.S. Department 
of the Interior. At the end of your testimony, we will begin 
questions. Your full written testimony will be made part of the 
official hearing record.
    Mr. Smith, you may proceed.

 STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Smith. Mr. Chairman and Senators, I appear before you 
as the Deputy Director, executing the authority of the Director 
of the National Park Service.
    It's a pleasure to be here with you today, opportunity to 
present the Department of the Interior's views on the 23 bills 
on today's agenda.
    I would like to submit our full statements on each of these 
bills for the record and summarize our views. The Department 
supports the following bills:
    S. 2102 which would confirm in statute that the boundary of 
Acadia National Park includes Schoodic Woods property that was 
donated in 2015. The bill would strictly limit future 
administrative boundary adjustments and it would allow 
traditional harvesting of marine species in the Park.
    S. 1692 which would authorize the National Emergency 
Medical Services Memorial Foundation to establish a 
commemorative work in the District to honor the commitment and 
service of the emergency medical services profession.
    H.R. 1397 which would resolve a longstanding access issue 
on the George Washington Memorial Parkway.
    S. 1260 and H.R. 2615 which would resolve an access issue 
at Gulf Islands National Seashore.
    S. 1446 and H.R. 1135 which would reauthorize funding for 
the preservation and restoration of historic structures on the 
campuses of historically black colleges and universities.
    And finally, S. 2213 and H.R. 43 which would authorize the 
organization named Pacific Historic Parks to establish a 
commemorative display at Pearl Harbor.
    The Department supports the goals of the following bills:
    S. 1956 and H.R. 2897 which would clarify the National Park 
Service and District of Columbia may enter into cooperative 
management agreements. However, we would like to work with the 
sponsors and the Committee to ensure that these bills would not 
affect other existing authorities.
    And S. 1335 which would authorize the establishment of the 
Ste. Genevieve National Historical Park. However, the 
Administration's focus is to reduce the National Park Service's 
$11.6 billion deferred maintenance backlog and to address 
critical National Park issues. Funding for new units in the 
National Park System is not a priority in the Administration's 
Fiscal '19 budget.
    The Department does not object to H.R. 1500 which would 
rename Reservation 302 in the District of Columbia as the 
Robert Emmet Park.
    Mr. Chairman, there were also eight bills related to 
National Heritage Areas and special resource studies that the 
Administration cannot support at this time. They are:
    S. 1645 which would authorize a special resource study of 
P.S. 103, Thurgood Marshall School in West Baltimore.
    S. 1646 which would authorize a special resource study of 
President Street Station in Baltimore.
    S. 1602 which would authorize a study of the suitability 
and feasibility of designating an area in New York as the 
Finger Lakes National Heritage Area.
    S. 400 which would establish the Susquehanna National 
Heritage Area in Pennsylvania.
    S. 1160 which would expand the boundaries of Lincoln 
National Heritage Area.
    S. 1472 which would extend the funding authorization for 
the Tennessee Civil War Heritage Area for Fiscal Years 2018 to 
2021.
    S. 2225 which would extend the funding authorization for 
Blue Ridge National Heritage Area for Fiscal Years 2019 to 
2022.
    And finally, S. 2238 which would eliminate the funding 
ceiling for the Ohio and Erie National Historic Heritage 
Canalway.
    The Department recognizes that National Heritage Areas play 
an important role in preserving and interpreting unique aspects 
of our nation's history and that special resource studies help 
inform decisions about the future care of the places that are 
part of the American story; however, National Heritage Areas 
and special resource studies are not funding priorities in the 
Administration's budget. Under these circumstances, we believe 
it would be unwise to authorize new studies, designate new 
national heritage areas or extend the funding authority or 
boundaries of any national historic areas at this time.
    However, the Department looks forward to working with 
Congress, particularly the members of this Subcommittee, to 
craft long-term solutions that will fund our National Park 
System.
    The Department does not support S. 1573. This bill would 
mandate the placement of signage for the unauthorized American 
Discovery Trail on federal land.
    Finally, the Department opposes S. 966 which would require 
the National Park Service to establish and maintain a register 
of historic vehicles because it would create an unnecessary new 
program.
    Mr. Chairman, this concludes my statement and I would be 
pleased to answer any questions you may have.
    [The prepared statements of Mr. Smith follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Daines. Thank you for your testimony.
    I know that Chairman Murkowski had some other commitments 
and did not have the opportunity to ask questions today.
    Mr. Smith, on Senate bill 1956 which would authorize the 
Mayor of the District of Columbia and the Director of the 
National Park Service to enter into a cooperative management 
agreement for the operation and maintenance and management of 
units of the National Park System in the District of Columbia. 
First, I want to thank you for the testimony on that, but I 
think all of us in this room can agree that this bill is about 
good government. Any time we have the opportunity to streamline 
efficiencies, improve visitor services and allow public-private 
partnerships to provide investments in our parks, it is a win-
win. This bill will allow DC to invest, starting with Franklin 
Park, in the modernization of Franklin Park.
    Mr. Smith, your testimony mentioned that the National Park 
Service felt the city already had this authority to sign these 
agreements, but the city solicitors felt they lacked such 
authority. Could you explain how this discussion came about?
    Mr. Smith. Mr. Chairman, I don't have the actual details on 
that but I do know that as so many things with the District of 
Columbia, it's sometimes not aligned in law like the state, 
like our relationships with states are, as far as these types 
of agreements. So, in this regard, if we have legal opinions 
from two different sources, this bill addresses that and so, 
the Park Service is supporting the bill that would make this 
not an issue anymore.
    Senator Daines. That is the Park Service recommendation 
then, to clarify this discrepancy?
    Mr. Smith. Yes, sir.
    Senator Daines. Okay, thank you.
    I want to shift gears to S. 1573. As written, S. 1573 would 
authorize the Secretaries of Interior and Agriculture to place 
signage on federal land marking the American Discovery Trail. 
As noted in the Department's testimony, the American Discovery 
Trail is not a federally designated trail but rather a trail 
coordinated and promoted by a non-profit. The trail was subject 
to a Congressionally-mandated study which was ultimately 
recommended for inclusion as a new category of trail systems, 
separate from scenic or historic trails. No action has occurred 
on this recommendation.
    Your testimony notes that federal land managers should 
retain the authority to decline the request to allow signage 
for non-federal trails in instances where they believe the 
signage could have detrimental impacts. Could you describe how 
this type of signage, whether specific to the American 
Discovery Trail or using a similar example, could have some 
type of detrimental impact?
    Mr. Smith. Detrimental is a strong word.
    It's basically, especially in the case of a trail that's 
not been authorized by the Congress and to have to place, they 
have to take on the responsibility of placing that, from a 
program area point of view, once we would do it for the 
American Discovery Trail, would there be other instances where 
putting up signs on federal property would become an issue? And 
I don't know if detriment is the correct word, but it is a 
policy that if it begins in one place, you set a precedent for 
it to happen in others.
    And right now, I can't think of a good example of where 
there might be another instance of this, but I'd be glad to 
provide that for the record. I'm sure that my memory will be 
better when I'm not sitting here today.
    Senator Daines. Okay, that would be helpful and if there is 
a better word than detrimental, we are open to that as well, if 
you think about it, if it comes to mind.
    My last question, Mr. Smith, is about your testimony 
regarding H.R. 1500 which would rename Reservation 302 in the 
District of Columbia as Robert Emmet Park. I noted something 
interesting. While the Park Service did not object to this 
legislation, the Department did point out that the statue in 
this small park we would be renaming, is owned by the 
Smithsonian and could technically be moved at any point in 
time. Has the Department been in contact with the Smithsonian 
regarding their long-term plans for the statue?
    Mr. Smith. I mean, understand Mr. Chairman, that we're in 
negotiations to extend it for another two years and I don't 
know why it wouldn't be extended beyond that, but I don't have 
more details. For right now, we are in discussions with 
Smithsonian to leave it there, at least for several more years.
    Senator Daines. In 2016, when the Department rehabilitated 
the landscaping at Reservation 302, were the future needs of 
the statue coordinated with the Smithsonian?
    Mr. Smith. One more time, Mr. Chairman?
    Senator Daines. In 2016, when the Department rehabilitated 
the landscaping at Reservation 302, were the future needs of 
the statue the Smithsonian owns, was it coordinated with the 
Smithsonian?
    Mr. Smith. Mr. Chairman, I imagine that it was, but I will 
also provide that for the record.
    Senator Daines. Okay.
    Mr. Smith. I'm just not aware.
    Senator Daines. Alright. Thank you.
    Ranking Member King.
    Senator King. Thank you.
    Acting Director Smith, thank you again for your support of 
S. 2001 and S. 2102 on Acadia, and I really want to express the 
appreciation of the entire Maine delegation for the work that 
the Department has done to get that bill to a place where we 
could have your support and we think solves some nagging 
problems at the Park. I think everyone in the region will 
appreciate that.
    I also wanted to mention that I appreciate the fact that in 
the President's budget request, the new budget request, it 
includes funding for our new Katahdin Woods and Waters National 
Monument. The monument has already begun to generate a lot of 
interest, excitement, and economic activity in the region, and 
we're very optimistic about the opportunity that it presents to 
that region. Infrastructure is very limited there because it is 
brand new, but I would love to have you come and visit. I would 
suggest, perhaps, a little later in the year, but we would love 
to have you come and visit the monument. I think you will be 
impressed by this really, very special, place.
    This monument came with substantial private support, but it 
needs support from the Park Service as well. I know that they 
are working on their management plan now, and we are going to 
continue to work with that process.
    But again, I want to thank the Administration for funding 
the beginnings of the infrastructure program at the new 
monument and hope that you may be able to see your way clear to 
come to Maine and see this special place.
    Mr. Smith. I understand that you and Secretary Zinke had a 
very interesting discussion on his visit. I'm glad to tell you 
that leading trip and trail programs in Maine, years ago, I've 
been stared down by a very big bull moose on one of those 
timber roads as I was hauling six canoes. And so, I know the 
area very well, Senator.
    But I will use your statement to convince the Department 
that I need to be in Maine sometime this summer. Thank you very 
much.
    Senator King. Yes, sir, anytime.
    Thank you, Mr. Chairman.
    Senator Daines. Sounds like a pretty good deal there, 
Senator King.
    If there are no more questions for today, members may also 
submit follow-up questions for the record. The hearing record 
will be open for two weeks.
    Unless you have more questions, Ranking Member King?
    Okay, I want to thank Mr. Smith for his time and testimony 
today.
    This hearing is adjourned.
    [Whereupon, at 3:30 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
